The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                             OFFICE OF INSPECTOR GENERAL
                                     WASHINGTON, DC 20436

VIA ELECTRONIC TRANSMISSION



September 28, 2011                                                       OIG-JJ-017


Chairman Okun:

This memorandum transmits the Office of Inspector General’s final report Audit of Continuous
Monitoring, OIG-AR-11-15. In finalizing the report, we analyzed management’s comments on
our draft report and have included those comments in their entirety in Appendix A.

This report contains four recommendations for corrective action. In the next 30 days, please
provide me with your management decisions describing the specific actions that you will take to
implement each recommendation.

Thank you for the courtesies extended to my staff during this audit.

Sincerely,



Philip M. Heneghan
Inspector General
                               U.S. International Trade Commission

                                                      Audit Report


                                               Table of Contents
Results of Audit ............................................................................................. 1

Problem Areas ............................................................................................... 2
   Problem Area 1: The Commission does not produce a real-time executive dashboard. 2

   Problem Area 2: The Commission does not provide automated data feeds to
   CyberScope. .................................................................................................................... 2

Management Comments and Our Analysis ............................................... 3
Scope and Methodology................................................................................ 4

Appendix A: Management Comments on Draft Report ......................... A




OIG-AR-11-15                                                   -i-
                     U.S. International Trade Commission

                                      Audit Report


                                      Results of Audit
Has the USITC implemented an effective and comprehensive continuous monitoring
system?

No. The USITC has not implemented an effective and comprehensive continuous
monitoring system.

Continuous monitoring describes the process of constantly collecting and auditing raw
data. In a typical computer network, systems generate logs to record a range of events,
including network access attempts, changes in permissions, or the starting and stopping
of programs. The sheer volume of events dictates a need for specialized software to
collect, store, and analyze this data. While specialized technicians have the training and
skillsets to review this raw data, it can be indecipherable to management not involved in
the day-to-day operations of complex networks. If management does not have real time
access to what is happening on its systems--it is not managing those systems.

For this reason, the Office of Management and Budget (OMB) recently instituted a
requirement for Federal Agencies to perform continuous monitoring, to provide specific
summary data in the form of an executive dashboard, and to provide direct feeds of this
data to OMB’s CyberScope portal. CyberScope is a web portal designed to collect
government-wide information security data.

To effectively implement OMB’s continuous monitoring requirements, the Commission
must perform the following:

   1.   Automated log management of all core infrastructure.
   2.   Automated management of software inventory.
   3.   Management of hardware inventory.
   4.   Inventory external connections.
   5.   Collect and maintain data concerning security training.
   6.   Collect and maintain data concerning identity management and access.
   7.   Create a real-time executive dashboard.
   8.   Configure capable software to provide data feeds to CyberScope.

We identified two problem areas that must be resolved before the Commission can meet
continuous monitoring requirements: it does not currently produce a real-time executive
dashboard, and it does not yet have the capacity to provide data feeds to the CyberScope
portal.




OIG-AR-11-15                               -1-
                      U.S. International Trade Commission

                                       Audit Report


                                    Problem Areas

                                        Problem Area 1:

         The Commission does not produce a real-time executive dashboard.


The Office of Management and Budget requires agencies to implement an executive
dashboard that presents management with summary data in a manner that enables timely
decision making. This data should be presented in a form that is automatically updated,
provides historical data for context, and highlights areas critical to decision making.

The Commission does not currently have this capability. A prototype dashboard has been
produced using a Microsoft Excel spreadsheet, but this format does not have the capability to
display real-time data, and does not provide an easily viewed historical context to enable
educated decision-making. Development of an effective executive dashboard has not been a
priority for the Office of Enterprise Security Management, and the end result is a product that
is not being used by the CIO.

Recommendation 1:

   Present the data in a real-time format, such as an automatically updating webpage.

Recommendation 2:

   Provide data on the dashboard using time-based graphs to allow those viewing it to
   identify trends and gain perspective.




                                        Problem Area 2:

       The Commission does not provide automated data feeds to CyberScope.


OMB requires agencies to provide data feeds to CyberScope for specific data including
inventory, systems and services, hardware, software, external connections, security
training, and identity management and access.




OIG-AR-11-15                                 -2-
                     U.S. International Trade Commission

                                     Audit Report


This requires that agencies implement management software to collect this data. The
USITC is collecting the majority of data required by OMB, but it does not yet have the
capacity to provide OMB with automated data feeds. The Commission will need to
configure its software to push its data to CyberScope automatically where possible, and
will need to provide manual data feeds for data items that cannot be automated.

Recommendation 3:

   Configure management software to push data to CyberScope.

Recommendation 4:

   Prepare manual data feeds for data items that cannot be automated.



              Management Comments and Our Analysis
On September 27, 2011, Chairman Deanna Tanner Okun provided management
comments on the draft audit report. The Chairman agreed with our assessment that there
are two problem areas related to the lack of an executive dashboard or data feeds to
Cyberscope, and recognized that the Commission can implement effective continuous
monitoring by implementing the recommendations detailed in the two problem areas.
The Chairman’s response is provided in its entirety as Appendix A.




OIG-AR-11-15                              -3-
                     U.S. International Trade Commission

                                     Audit Report


                            Scope and Methodology
Scope:

       •   The scope of this audit included the systems and processes related to
           Continuous Monitoring at the USITC.

Methodology:
               a. Identify Continuous Monitoring and reporting systems in use at the
                  USITC
               b. Assess existing systems compliance with Office of Management and
                  Budget Memorandum M-10-15 and NIST Special Publication 800-
                  137, with a specific focus on the following areas:
                       i. Executive dashboard
                      ii. OMB FISMA reporting requirements
                     iii. System-wide Continuous Monitoring/Automation
                     iv. Measures and Metrics
                      v. Finding analysis and response
We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




OIG-AR-11-15                               -4-
               U.S. International Trade Commission

                           Appendix A


    Appendix A: Management Comments on Draft Report




OIG-AR-11-15                  -A-
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
